HHS/OIG-Audit-"Audit of Medicare Payments to PacifiCare of California for Beneficiaries Classified as Institutionalized in January 1998"(A-09-01-00056)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Payments to PacifiCare of California for Beneficiaries
Classified as Institutionalized in January 1998," (A-09-01-00056)
September 21, 2001
Complete
Text of Report is available in PDF format (777 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if enhanced Medicare payments
made to PacifiCare of California (PacifiCare) were appropriate for beneficiaries
classified as institutionalized in January 1998.  We estimate that PacifiCare
received Medicare overpayments of at least $2,083,163 for beneficiaries incorrectly
classified as institutionalized in January 1998.  We recommended that
PacifiCare: (1) refund the specific overpayments of $66,658 identified in the
sample; (2) coordinate with CMS to ensure that adjustments already submitted,
totaling $8,756, are processed; and (3) review the balance of the institutionalized
beneficiary universe to identify and refund additional overpayments (total
overpayments are estimated to be $2,083,163).